   August 30, 2002




Information
System Security

Government Information Security
Reform Act Implementation:
Defense Security Assistance
Management System
(D-2002-142)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                        Communications, and Intelligence)
DECC                  Defense Enterprise Computing Center
DISA                  Defense Information Systems Agency
DITSCAP               DoD Information Technology Security Certification and
                        Accreditation Process
DSAMS                 Defense Security Assistance Management System
DSCA                  Defense Security Cooperation Agency
GISR                  Government Information Security Reform
SSAA                  System Security Authorization Agreement
         Office of the Inspector General of the Department of Defense
Report No. D-2002-142                                                   August 30, 2002
  (Project No. D2002LD-0100)

     Government Information Security Reform Act Implementation:
           Defense Security Assistance Management System

                                Executive Summary

Who Should Read This Report and Why? DoD personnel who are involved in
implementing Government Information Security Reform Act (GISRA Act) requirements
should read this report. The report discusses our independent assessment of the
information security posture of the Defense Security Assistance Management System, a
Defense Security Cooperation Agency system.

Background. To gather data on assessments of the effectiveness of DoD information
assurance policies, procedures, and practices, DoD developed a GISR Act collection matrix
for automated information systems. DoD selected a sample of 560 automated information
systems from the almost 4,000 automated information systems in DoD. For those 560
systems, DoD reported the aggregate results of the assessments for FY 2001 in “GISR
Report FY01: Government Information Security Reform Act, Report of the Department of
Defense,” October 2001. Of the 560 systems, the Office of the Inspector General of the
Department of Defense, the Defense Information Systems Agency Inspector General, and
Military Department audit agencies assessed a sample of 115 systems. This report is one in
a series of GISR Act audits and is an assessment of the Defense Security Assistance
Management System. The Defense Security Assistance Management System is a mission-
essential system developed to produce and track security assistance-related contractual
documents (sales agreements between governments).

Results. In our assessment of the Defense Security Assistance Management System, the
Defense Security Cooperation Agency implementation of GISR Act requirements, as
reported in the GISR Act collection matrix for FY 2001, was generally accurate as of
August 1, 2001, the date of the FY 2001 collection matrix data, with the exception of one
response regarding hardware and system software maintenance plans. Additionally, there
was an outstanding issue related to personnel security that had been addressed in
Inspector General of the Department of Defense Report No. D-2001-141, “Allegations to
the Defense Hotline on the Defense Security Assistance Management System,”
June 19, 2001. We found that contractor employees were continuing development work
on Defense Security Assistance Management System software while their security
clearances were pending. Although 1 of the 32 responses provided in the collection
matrix was inaccurate, we concluded that the Defense Security Cooperation Agency was
following the standard DoD process to certify and accredit the system. As a result, the
Defense Security Cooperation Agency was making progress toward achieving full
information security accreditation for the Defense Security Assistance Management
System. For details on the audit results, see the Finding section of the report.

Management Comments. We provided a draft of this report on August 1, 2002. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                                          i

Background                                                                 1

Objectives                                                                 3

Finding
     Defense Security Assistance Management System Information Security    4

Appendixes
     A. Scope and Methodology                                             13
          Prior Coverage                                                  14
     B. Government Information Security Reform Act Collection Matrix
          Submission                                                      15
     C. Report Distribution                                               23
Background
    Government Information Security Reform. On October 30, 2000, the President
    signed the Floyd D. Spence National Defense Authorization Act for FY 2001
    (Public Law 106-398), which includes title X, subtitle G, the “Government
    Information Security Reform” (GISR Act). Subtitle G directs that the Government
    ensure effective controls for highly networked Federal information resources;
    management and oversight of information security risks; and a mechanism for
    improved information system security oversight and assurance for Federal
    information security programs. The GISR Act directs each Federal agency (DoD
    for purposes of this report) to annually evaluate its information security program
    and practices and, as part of the budget process, submit the results of the
    evaluation to the Office of Management and Budget. The GISR Act covers both
    unclassified and national information security systems and creates a comparable
    security management framework for each. The GISR Act also requires that the
    agency Inspector General or other independent agent evaluate the agency
    information security program and practices. Also, the GISR Act requires each
    agency Inspector General or other independent agency to select and test a subset of
    systems that will confirm the effectiveness of the information security programs.

    DoD Responsibilities. The GISR Act directs DoD to annually evaluate its
    information security program and practices. The DoD uses information
    technology for thousands of processes that are integral to support and operational
    functions. Mission-critical, mission-essential, and support-function processes, or
    applications, reside on computer systems throughout DoD. Applications for the
    DoD Components include financial accounting; personnel; pay and disbursement;
    materiel shipping, receiving, and storing; munitions maintenance; and weapon
    systems-associated applications.

    The GISR Act directs that DoD as part of the budget process submit the results of
    its annual evaluation to the Office of Management and Budget. Office of
    Management and Budget guidance, memorandum 01-24, “Reporting Instructions
    for the Government Information Security Reform Act,” June 22, 2001, directs the
    Secretary of Defense to transmit the FY 2001 annual evaluation of information
    security program and practices to the Office of Management and Budget by
    October 1, 2001. The Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) (ASD[C3I]) formed and chaired an Integrated
    Process Team to develop and finalize the guidance and methodology for DoD
    reporting of the GISR Act. The GISR Act Integrated Process Team developed a
    32-column spreadsheet--GISR Act collection matrix--to gather data on
    assessments of the effectiveness of DoD information assurance policies,
    procedures, and practices. DoD required the FY 2001 GISR Act collection matrix
    data completion as of August 1, 2001.

    Inspector General Responsibilities. Office of Management and Budget issued
    memorandum 01-08, “Guidance on Implementing the Government Information
    Security Reform Act,” in January 2001 to provide implementation instructions for
    Federal agencies in carrying out the GISR Act. Guidance specific to the duties of
    each Inspector General as an independent evaluator was also included in that
    memorandum. The Office of Management and Budget guidance states that each


                                        1
Inspector General or independent evaluator “should perform an annual evaluation
of the agency’s security program and practices. This testing includes testing the
effectiveness of security controls for an appropriate subset of agency systems.”
Although the GISR Act applies to all Government information systems, the
Office of Management and Budget acknowledged that agencies could not review
all of those systems every year. As a result, the independent evaluation should
identify and assess a logical representative sampling of systems that can be used
to form the basis of a conclusion regarding the effectiveness of an agency’s
overall security program.

DoD Systems. The Office of the Inspector General of the Department of Defense
developed a stratified random sample from the population of automated information
systems the DoD evaluated and reported for FY 2001 in the “GISR Report FY01:
Government Information Security Reform Act, Report of the Department of
Defense,” October 2001 (DoD GISR Act Report). DoD selected and reported in the
DoD GISR Act Report on a sample of 560 automated information systems from the
almost 4,000 systems listed in the DoD Information Technology Registry.1 The
Office of the Inspector General of the Department of Defense stratified random
sample included 115 systems from the universe sample of 560 systems that were
reported on in the DoD GISR Act Report. The audit agencies for the Military
Departments and the Defense Information Systems Agency (DISA) Inspector
General were to evaluate 91 of the 115 information systems in the sample by
August 2, 2002. The Office of the Inspector General of the Department of Defense
was to evaluate the remaining 24 systems that support DoD agencies and activities.
This report discusses the evaluation of 1 of the 24 DoD-level systems, the Defense
Security Assistance Management System (DSAMS).

DoD Information Security Program. DoD Instruction 5200.40, “DoD
Information Technology Security Certification and Accreditation Process
(DITSCAP),” December 30, 1997, provides the procedures for certification and
accreditation of information technology to include information systems, networks,
and sites in DoD. It also assigns responsibilities for oversight and
implementation of the certification and accreditation process. DITSCAP is to be
used as guidance throughout the certification and accreditation process. DoD
Manual 8510.1-M, “Department of Defense Information Technology Security
Certification and Accreditation Process (DITSCAP) Application Manual,”
July 2000, provides implementation guidance that standardizes the certification
and accreditation process throughout DoD.




1
    The Information Technology Registry was established in response to requirements contained in
    section 8102(a) of the National Defense Appropriation Act for FY 2001 and section 811(a) of
    the National Defense Authorization Act for FY 2001. The DoD registry must contain all of the
    fielded mission-critical and mission-essential systems as well as all the mission-critical and
    mission-essential systems that are in development.



                                              2
Objectives
    Our overall audit objective was to assess DSAMS for implementation of the
    GISR Act requirements of the Floyd D. Spence National Defense Authorization
    Act for FY 2001. See Appendix A for a discussion of the audit scope and
    methodology and for prior coverage.




                                      3
                Defense Security Assistance Management
                System Information Security
                Data reported for DSAMS in support of the implementation of the GISR
                Act requirements for FY 2001 were generally accurate as of
                August 1, 2001, with the exception of one response regarding hardware
                and system software maintenance plans. Additionally, there was an
                outstanding issue related to personnel security that had been addressed in
                Inspector General of the Department of Defense Report No. D-2001-141,
                “Allegations to the Defense Hotline on the Defense Security Assistance
                Management System,” June 19, 2001. We found that contractor
                employees were continuing development work on DSAMS software while
                their security clearances were pending. However, the Defense Security
                Cooperation Agency (DSCA)2 was following DITSCAP to certify and
                accredit DSAMS. As a result, DSCA was making progress in achieving
                full information security accreditation for DSAMS.

Defense Security Cooperation Agency Mission
    DSCA provides direction, supervision, and oversight of security cooperation
    programs in support of U.S. national security and foreign policy objectives. As
    part of that mission, DSCA manages foreign military sales requests, approvals,
    funding, payments, and transfers. DSAMS is the automated information system
    that supports foreign military sales management for DSCA and the Military
    Departments.

System Background
    DSAMS is a mission-essential3 system developed to produce and track security
    assistance-related contractual documents (sales agreements between
    governments). By FY 2004, the DSAMS Program Office expects that DSAMS
    will also handle planning and execution of security assistance training. DSAMS
    was originally planned to replace 13 legacy systems operating within DSCA, the
    Defense Finance and Accounting Service, and the Military Departments. The
    first module of DSAMS was deployed in February 1998 to the Naval Inventory
    Control Point, Philadelphia, Pennsylvania; the Navy International Programs
    Office, Arlington, Virginia; and the Naval Education and Training Security
    Assistance Field Activity, Pensacola, Florida. The Army began use of DSAMS in
    December 1998, and the Air Force began use in July 1999. The Defense Finance
    and Accounting Service became actively engaged with the deployment of the
    second DSAMS module in August 2000. As of March 2002, DSAMS was
    installed at 67 user sites.

    2
        DSCA is the program office for DSAMS and is responsible for the continued development and
        maintenance of the system.
    3
        Mission-essential systems are those systems that are basic and necessary for the accomplishment
        of an organization’s mission.


                                                  4
    System Configuration. DSAMS uses client and server architecture,4 and users
    access DSAMS through a personal computer, software components installed at
    the user’s site, and the Non-Secure Internet Protocol Router Network connection.
    The DSAMS application and database reside on a server located at the DISA
    Defense Enterprise Computing Center (DECC), Oklahoma City, Oklahoma, and
    employs an Oracle database structure.

    System Operations. DSAMS is an unclassified system but contains sensitive
    data, such as information about foreign customers’ contracts for materiel and
    services procured from the U.S. Government. DSAMS was originally planned to
    facilitate a full life-cycle management system for security assistance-related
    documents.

Data Collection Matrix
    DSCA provided the response for the DSAMS to ASD(C3I) as of August 1, 2001,
    and the data reported were generally accurate. In response to the GISR Act
    requirement for each Federal agency to annually evaluate and report on its
    information security program and practices, ASD(C3I) developed a GISR Act data
    collection matrix (the matrix) for DoD. The Assistant Secretary developed the
    matrix as a management tool to track information assurance trends and outcomes.
    The matrix consisted of a spreadsheet divided into four sections for data. Section
    titles included identifying information, accreditation information, assessment
    criteria information, and operations and assessments interest items.

    In response to the information requested in the matrix, DSCA was generally
    required to answer yes, no, or provide a date for action completed. With the
    exception of a special section that could be used for augmenting comments, no
    other explanation was required or expected. A discussion of each section of the
    matrix, the data that DSCA reported in the matrix for DSAMS, and our analysis
    of the data follows. Appendix B contains the information for DSAMS that was
    reported in the matrix that ASD(C3I) used for the DoD GISR Act Report.
    Identifying Information. DSCA was requested to provide the system or network
    name, acronym, component owner, and information technology classification
    (mission critical or mission essential) in the identifying information section of the
    matrix. DSCA responded in the matrix that DSAMS was classified as a
    mission-essential information technology system. We verified that the
    identification information in the matrix was correct as stated in the DoD
    Information Technology Registry.

    Accreditation Information. DSCA was requested to provide in the accreditation
    information section of the matrix the date of accreditation certification, the date of
    interim certification, the accreditation method, and whether formal documentation
    for certification and accreditation existed.

    4
     Client and server architecture is an arrangement in which some software components reside on a
     central server and other software components reside on a client’s personal computer or
     workstation separate from the main server.



                                               5
        Accreditation Date. DSCA was requested to provide the date that an
accreditation process accredited DSAMS. DoD Directive 5200.28, “Security
Requirements for Automated Information Systems (AISs),” March 21, 1988,
establishes the minimum security requirements for DoD automated information
systems. DITSCAP implements the Directive, assigns responsibility, and
prescribes procedures for certification and accreditation. DSCA responded in the
matrix that DSAMS was not accredited. We verified that the DSCA response was
appropriate. DSCA was working on accrediting DSAMS and its goal was to have
DSAMS accredited by the end of calendar year 2002.

        Interim Certification Date. DSCA was requested to provide the date that
an interim authority to operate was granted. According to the provisions of
DITSCAP, interim authority should be based on the establishment of an acceptable
level of risk in operating the system. DSCA responded in the matrix that an
interim authority to operate had not been granted for DSAMS. We verified that
DSAMS had been operating since calendar year 1998 without accreditation or
interim authority to operate. However, on June 13, 2002, DSCA was granted a
180-day interim authority to operate DSAMS from the DSAMS Designated
Approval Authority, the Deputy Director of DSCA. DSCA planned to complete
the DSAMS certification and accreditation process prior to the expiration of the
180-day interim authority.

        Accreditation Method. DSCA was requested to identify whether
DSAMS was accredited under DITSCAP and, if not under DITSCAP, to describe
other accreditation and certification procedures. Several policies govern actions
of DSAMS program officials, but DITSCAP is the principal governing document
for risk assessment and mitigation of DoD information technology systems.
DITSCAP establishes the oversight mechanism that ensures identification of
appropriate information to certify, accredit, and maintain a program’s security.
DSCA responded in the matrix that DSAMS was not accredited under DITSCAP
or any other procedures. We verified that DSCA was following DITSCAP
procedures to accredit and certify DSAMS but, as of August 1, 2001, DSAMS
was not accredited. DSCA plans to receive DITSCAP accreditation by the end of
calendar year 2002.

        Certification and Accreditation Documentation. DSCA was requested
to identify whether formal documentation existed that the Inspector General of the
Department of Defense or other entities could use to verify accreditation.
DITSCAP requires a System Security Authorization Agreement (SSAA) for each
information technology system. The SSAA is a formal and binding document
among the system program manager, the Designated Approving Authority, the
Certifying Authority, and the user representative that establishes the level of
security required. The SSAA guides the process and documents the results for
certification and accreditation as well as implementation of information
technology security requirements. DSCA responded in the matrix that it did not
have formal documentation in effect for the DSAMS certification and
accreditation process. We confirmed that DSCA had not formally documented
the DSAMS certification and accreditation process with an SSAA. However,
some of the plans, policies, and procedures normally included in an SSAA
existed. DSCA planned to complete the development of the SSAA during the
180-day interim authority to operate.


                                    6
Assessment Criteria Information. DSCA was requested to confirm that
information assurance controls and plans in the assessment criteria information
section of the matrix existed. According to the instructions provided for the
matrix, ASD(C3I) developed the assessment criteria information section to assess
selected systems on the basic program management, controls, and procedures that
exist as part of the operation of the system.

        Access Controls. DSCA was requested to identify whether access controls
were in place. ASD(C3I) defined access controls as controls that limited access of
information system resources to authorized users, programs, processes, or other
systems. DSCA responded in the matrix that access controls were in place. We
verified that DSCA had access controls in place. Those access controls that
DSAMS used included: users were required to identify themselves during system
login through the use of a protected mechanism (such as passwords) to
authenticate user identity and user accounts; user accounts were deactivated after
three unsuccessful login attempts; and passwords expired every 90 days.

        Risk Assessment and Management Plan. DSCA was requested to identify
whether a risk assessment and management plan had been completed. ASD(C3I)
defined risk as the possibility of something adverse happening; risk assessment as
the process of analyzing threats and vulnerabilities of an information system, and
the potential impact of lost information; and risk management as the process of
assessing risk, taking steps to reduce risk to an acceptable level, and maintaining
that level of risk. DSCA responded in the matrix that a risk assessment and
management plan was not completed. We verified that when DSCA submitted the
matrix data as of August 1, 2001, it had not developed a DSAMS risk assessment
and management plan. However, since that time, DSCA completed a DSAMS risk
assessment and developed a DSAMS risk management plan.

       System Life-Cycle Plan. DSCA was requested to identify whether a
system life-cycle plan existed. System life-cycle plan guidance that ASD(C3I)
provided with the matrix was that many system life-cycle models exist but most
contain five basic phases: initiation, development and acquisition,
implementation, operation, and disposal. DSCA responded in the matrix that a
DSAMS life-cycle plan had not been completed. We confirmed that as of
August 1, 2001, DSCA had not developed a DSAMS life-cycle plan. As of
June 2002, a DSAMS life-cycle plan was being developed.

        System Security Plan. DSCA was requested to identify whether a system
security plan was in place. ASD(C3I) defined a system security plan as an overview
of the security requirements of a system, a description of the controls in place or the
controls planned for meeting those requirements, and delineation of responsibilities
and expected behavior of the individuals who access the system. DSCA responded
in the matrix that a DSAMS security plan had not been completed. We confirmed
that as of August 1, 2001, DSCA had not developed a DSAMS security plan.
However, since that time, DSCA developed a system security plan. The system
security plan, the “DSAMS End Users Security Guide,” identifies the security
measures that must be enforced to operate DSAMS so that the system can securely
process sensitive, unclassified information. In addition, the guide documents
DSAMS information system security personnel responsibilities, security
management responsibilities, and incident reporting responsibilities.


                                      7
        Personnel Security Measures. DSCA was requested to identify whether
proper personnel security measures were in place. ASD(C3I) defined personnel
security measures as a broad range of security issues related to how human users,
designers, implementers, and managers of software and hardware interact with
computers, and the access and authorities needed to do their jobs. DSCA
responded in the matrix that DSAMS had personnel security measures in place.
We confirmed that personnel security measures, in the form of access measures,
were in place for DSAMS. DSAMS had segregation of duties, with varying
levels of access and control for designers, developers, programmers, testers, and
system administrators. DSAMS authorized personnel access to DSAMS through
the use of password-protection procedures. DSAMS password-protection
procedures require passwords to be changed every 90 days and user accounts to
be closed after 180 days of inactivity.

        Although personnel security access measures were in place, another
personnel security issue addressed in Report No. D-2001-141 had not been
corrected. We found that contractor employees were continuing development work
on DSAMS software while their security clearances were pending. We readdressed
that personnel security issue with DSCA in a classified memorandum, “Potential
Security Risks to Department of Defense Information Systems,” June 14, 2002.
The Audit Followup and Technical Support Directorate, Inspector General of the
Department of Defense, plans to perform follow up action on the personnel security
issue.

        Physical Security Controls. DSCA was requested to identify whether
physical security controls were in place. ASD(C3I) defined physical security and
environment security as the measures taken to protect systems, buildings, and
related supporting infrastructures against threats associated with their physical
environment. DSCA responded in the matrix that DSAMS had physical security
controls in place. We verified that physical security controls were in place. All
DSAMS equipment (servers and data storage) was secured by DISA at DECC
Oklahoma City,5 where the DSAMS application resides. DECC Oklahoma City
physical security controls for DSAMS included that the support and
administrative areas were protected by at least one physical barrier and that the
computer room was protected by at least three physical barriers. The Defense
Security Assistance Development Center network, Mechanicsburg, Pennsylvania
(used to develop DSAMS software) was secured by at least two physical barriers.

        Administrative Controls. DSCA was requested to identify whether
administrative controls were in place. ASD(C3I) did not define administrative
controls but suggested that administrative controls included the presence of a help
desk and audit trail. Administrative controls are designed to promote operational
efficiency and adherence to system policies and procedures. DSCA responded in
the matrix that DSAMS had administrative controls in place. We verified the
DSCA response. DSCA had established a help desk and an audit trail for DSAMS.

       Contingency Plans. DSCA was requested to identify whether
contingency plans were in place and, if so, when the last time was that a
contingency drill, data loss drill, or power loss drill occurred. ASD(C3I) defined
5
    The DECC Oklahoma City site received DITSCAP certification and accreditation on September 15, 2000.



                                            8
contingency planning as involving more than simply planning for a move offsite
after a disaster destroys a facility. Contingency planning was to also include how
to keep an organization’s critical functions operational in the event of disruptions,
both large and small. Although DoD Directive 5200.28 requires periodic testing
of contingency plans for mission-critical systems, the Directive encourages
contingency plans for all systems. DSCA responded in the matrix that DSAMS
did not have a contingency plan in place and left the date the contingency plan
was last exercised blank. We verified that DSCA did not have a complete
DSAMS contingency plan; however, it did have a year 2000 DSAMS business
contingency plan. That contingency plan addressed two business-specific
contingencies, short-term loss and prolonged loss of system availability, but did
not address site-specific contingencies, such as natural disasters (for example,
fire, flood, and earthquake), civil disorders, and bomb threats. DSCA was
revising the contingency plan to address additional events.

Short-term loss (less than 1 week) of DSAMS availability was addressed through
users of the system holding foreign military sales data and the users inputting the
data when DSAMS became operational. Prolonged loss (in excess of 1 week) of
DSAMS availability was addressed with the use of manual methods to process the
foreign military sales data (typewriters, word processors, faxes, telephones,
couriers, and the use of existing reports). When DSAMS becomes operational,
the manually processed data would then be inputted. Furthermore, if the DECC
Oklahoma City operations site were to become inoperable, DSAMS would be
restored at a DISA backup operations site in Louisiana from the nightly DSAMS
backup files. As reported by DSCA, the contingency plan had not been fully
exercised. However, DSCA had executed parts of the plan, such as the data
backup and recovery processes. DISA last exercised DSAMS at the backup
operations site in June 2002.

       Hardware and System Software Maintenance Plans. DSCA was
requested to identify whether hardware and software maintenance plans were in
place. ASD(C3I) defined hardware and software maintenance plans as controls
used for monitoring the installation of, and update to, hardware and software to
ensure that the system functions as expected and that a historical record of
changes is maintained. DSCA responded in the matrix that DSAMS had
hardware and system software maintenance plans in place. However, we
determined that DSAMS did not have hardware and system software maintenance
plans when the matrix was submitted. DSCA officials agreed that the answer was
incorrect as of August 1, 2001. As of June 2002, DSAMS had not developed
hardware and system software maintenance plans.

        Data Integrity Processes. DSCA was requested to identify whether data
integrity processes were in place. ASD(C3I) defined data integrity processes as
controls used to protect data from accidental or malicious alteration or destruction
and used to provide assurance for users that the information met expectations
about its quality and integrity. DSCA responded in the matrix that DSAMS had
data integrity processes in place. We verified that DSAMS had data integrity
processes. DSAMS was protected by virus detection and communication
encryption software that guaranteed integrity and confidentiality. The data
integrity processes were managed for DSAMS through the use of software controls
and procedural measures at the DITSCAP-accredited DECC Oklahoma City site.


                                      9
        Security Incident Response Plan. DSCA was requested to identify
whether a security incident response plan was in place. ASD(C3I) defined a
security incident response plan as a formal description and evaluation of risks to
an information system, and a process that identified and applied countermeasures
commensurate with the value of the assets protected based on a risk assessment.
An incident response plan should have help capability when an adverse event in a
computer system or network causes a failure of a security mechanism or when an
attempted breach of those mechanisms occurs. DSCA responded in the matrix by
leaving the field blank. We confirmed that DSAMS did not have a security
incident response plan in place at the time the matrix was submitted. However,
since August 1, 2001, DSCA had developed a security incident response plan.
The plan provides general guidelines for the systematic response to unauthorized
intrusions, classified message incidents, malicious code, fraud and theft, errors in
and omissions of data, employee sabotage and abuse, and denial of service
incidents.

Operations and Assessments Interest Items. DSCA was requested to identify
specific operational assessment mechanisms that existed as part of the operation
of the system and to provide general comments to augment reporting efforts on
basic program management, controls, and procedures. ASD(C3I) did not provide
definitions for reporting elements contained in the operations and assessments
interest items section of the matrix. Information contained in that section
included network protections, vulnerabilities, and assessments.

      Network Protections. ASD(C3I) requested data from DSCA on the
network security functions of intrusion detection systems and firewalls.

               Intrusion Detection Software. DSCA was requested to identify
whether intrusion detection software protected the DSAMS. Intrusion detection
software inspects all inbound and outbound network activity and identifies
suspicious patterns that may indicate a network or system attack from someone
attempting to break into or compromise a system.

               Firewalls. DSCA was requested to identify whether boundary
protections, such as firewalls, for DSAMS were present. A firewall is a boundary
protection system that limits access between networks to prevent intrusions from
outside the network. A firewall stops external intrusions but does not detect an
attack from inside the network.

        DSCA responded in the matrix that DSAMS was protected by intrusion
detection software and had boundary protection in place. We confirmed that
DSAMS was protected by intrusion detection and a firewall at DECC Oklahoma
City. DSAMS uses client and server architecture; although DSAMS did not have
intrusion detection software or firewalls at user sites, the DISA intrusion detection
software and firewall at DECC Oklahoma City protected the DSAMS data.

        Vulnerabilities. ASD(C3I) requested DSAMS information from DSCA
concerning the red and blue team assessment, information assurance vulnerability
alert process, and the vulnerability analysis and assistance program.




                                     10
                Red and Blue Team Assessment. DSCA was requested to identify
the date for the most recent red and blue team assessment. According to a
dictionary and reference guide used by the GISR Act Integrated Process Team, a
red team is a simulated opposing force that uses active and passive actions, as well
as technical and non-technical capabilities, to expose and exploit information
operation vulnerabilities of a blue team (a simulated friendly force). DSCA
responded in the matrix that DSAMS had not had a red and blue team assessment.
We confirmed that the DSCA response was correct as of August 1, 2001.
However, as part of an FY 2000 security review of DSAMS, the system’s
development contractor performed internal penetration testing for vulnerabilities.
In addition, DISA had a red and blue team assessment performed for the DECC
Oklahoma site.

                Connections. DSCA was requested to identify whether DSAMS
had a connection approval to connect to a larger backbone network. Connections
are system interfaces to other information systems for the purpose of transmitting
or receiving data. DSCA responded in the matrix that the DSAMS interface
connections were approved. We confirmed that DSCA had a formal DSAMS
system interface agreement with the external Defense Integrated Financial System
of the Defense Finance and Accounting Service. Additionally, DSCA had system
interface specifications for DSCA systems that connected to DSAMS. The
DSAMS system interface specifications identify and map the data protocols for
those internal and external DSCA systems that exchange data with DSAMS.

                Information Assurance Vulnerability Alert. DSCA was
requested to identify whether DSAMS was fully information assurance
vulnerability alert compliant in both acknowledging and adhering to information
assurance vulnerability alerts. An information assurance vulnerability alert is a
process that incorporates identification and evaluation of new vulnerabilities,
disseminates technical responses, and tracks compliance within DoD. Alerts are
generated when a critical vulnerability that poses an immediate threat to DoD
exists. DSCA responded in the matrix that DSAMS was fully information
assurance vulnerability alert compliant. We confirmed that the DSCA response
was appropriate as of August 1, 2001; DSAMS was information assurance
vulnerability alert compliant.

               Vulnerability Analysis and Assistance Program. DSCA was
requested to identify whether DSAMS had a vulnerability analysis and assistance
program assessment. According to a dictionary and reference guide used by the
GISR Act Integrated Process Team, a vulnerability analysis and assistance
program was a survey of the Non-Secure Internet Protocol Router Network, the
SECRET Internet Protocol Router Network, and Joint Worldwide Intelligence
Communications System networks for common computer security vulnerabilities.
DSCA did not provide a response in the matrix. We confirmed that the DSCA
response was appropriate as of August 1, 2001, and as of June 2002, no
vulnerability analysis and assistance program assessment had been performed.




                                    11
           Assessments. DSCA was requested to identify the dates for the most recent:

                   •   Joint Staff integrated vulnerability assessment,

                   •   system requirements reviews,

                   •   balance survivability assessment, and

                   •   integrated vulnerability assessment.

            DSCA provided no response in the matrix. We confirmed that the DSCA
    response was correct as of August 1, 2001, because the reporting elements in the
    section were specific assessments and technical controls that not all systems were
    required to perform, which included DSAMS. However, in May 2000, DISA
    performed a system requirements review at DECC Oklahoma City, which
    included a review of DSAMS.


Conclusion
    From our analysis of the data reported in the matrix for DSAMS, we concluded
    that DSCA was following DITSCAP to certify and accredit DSAMS. Although
    1 of the 32 matrix responses was incorrect and audit issues from a prior audit
    remained unresolved, we concluded that DSCA was making progress in achieving
    full information security accreditation for DSAMS.




                                        12
Appendix A. Scope and Methodology
   Work Performed. We verified and validated the DSAMS data supporting the
   DoD GISR Act Report. We also performed a review of DSAMS information
   security controls at the Defense Security Assistance Development Center,
   Mechanicsburg, Pennsylvania, to validate operational controls. To accomplish
   the audit objective, we:

          •   reviewed Public Law 106-398, Office of Management and Budget
              guidance, and DoD regulations and guidance related to the GISR Act;

          •   interviewed DSAMS personnel in DSCA who prepared the GISR Act
              matrix submission;

          •   verified the information reported on the GISR Act data collection
              matrix. Our verification consisted of reviewing the documentation
              that supported the answers DSCA provided on the GISR Act
              collection matrix as of August 1, 2001;

          •   interviewed personnel responsible for DSAMS development at the
              Defense Security Assistance Development Center; and

          •   reviewed site operations that documented the presence of operational
              controls at the Mechanicsburg site.

   Limitations to Scope. We limited the audit scope to verification and validation
   of information in the DSAMS GISR Act collection matrix submitted by DSCA
   and certification and accreditation progress made since. Additionally, we did not
   review the management control program because DoD recognized information
   assurance programs as a material weakness in its FY 2000 Statement of
   Assurance, which was its most recent, signed Statement of Assurance.

   High-Risk Area. The General Accounting Office has identified several high-risk
   areas in DoD. This report provides coverage of the Information Security high-
   risk area.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Audit Dates and Standards. We performed this audit from April through
   July 2002 in accordance with generally accepted government auditing standards.

   Contacts During the Audit. We visited or contacted individuals and
   organizations within DoD. Further details are available on request.




                                       13
Prior Coverage
     During the last 5 years, the Inspector General of the Department of Defense has
     issued two reports discussing DSAMS. Unrestricted Inspector General of the
     Department of Defense reports can be accessed at
     http://www.dodig.osd.mil/audit/reports.

Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. D-2001-141, “Allegations to the Defense Hotline on the
     Defense Security Assistance Management System,” June 19, 2001

     IG DoD Report No. 98-095, “Defense Security Assistance Management System,”
     March 24, 1998




                                        14
Appendix B. Government Information Security
            Reform Act Collection Matrix Submission
     We evaluated the DSAMS GISR Act collection matrix that DSCA submitted as of
     August 1, 2001, to ASD(C3I). The following is a summary of the data ASD(C3I)
     requested, the response from DSCA, and our analysis of the response for 27 of 32 fields on
     the data collection matrix. We did not include in the matrix below five administrative
     information data fields that identified the system. A list of acronyms is at the end of this
     appendix.

                                       Accreditation Information

                                  DSCA
   Data Requested                Response∗                                Audit Results

 Accredited? (Date)           No                  DSAMS was not accredited.

                                                  The DSCA goal was to accredit DSAMS by the end
                                                  of calendar year 2002.

 Interim authority to         No                  DSAMS had been operating since February 1998
 operate? (Date)                                  without accreditation or interim authority to operate.

                                                  On June 13, 2002, DSCA was granted a 180-day
                                                  interim authority to operate DSAMS, from the
                                                  Designated Approving Authority (Deputy Director,
                                                  DSCA).

 Accreditation under          No                  DSAMS was not accredited, but DSCA was
 DITSCAP?                                         following DITSCAP to certify and accredit DSAMS,
                                                  and planned for accreditation by the end of calendar
                                                  year 2002.

 Not DITSCAP,                 No                  DSAMS was not accredited prior to the current effort
 describe other.                                  to accredit under DITSCAP.

 Formal                       No                  No formal SSAA had been developed for DSAMS.
 documentation in                                 DSCA planned on developing an SSAA to formally
 effect? (SSAA or                                 document DSAMS certification and accreditation
 other certification                              processes.
 and accreditation
 documentation)



     ∗
         Some questions request a date only. If a date was provided, it can be implied that the answer was yes.



                                                        15
                                  Assessment Criteria Information

                                 DSCA
  Data Requested                Response∗                                Audit Results
Access controls in           Yes                 The DSAMS used passwords and user accounts.
place?
                                                   − User accounts were user’s first initial and full
                                                      last name.
                                                   − Passwords were from 8 to 15 characters long,
                                                      and had at least one uppercase, one lowercase,
                                                      and either one numeric or one special character.
                                                   − After three unsuccessful login attempts, the
                                                      DSAMS user account is deactivated.
                                                   − Passwords expired every 90 days.

Risk assessment and          No                  DSCA had not developed a DSAMS a risk
management plan                                  assessment and management plan at the time the
completed?                                       matrix was submitted.

                                                 DSCA subsequently completed the risk analysis and
                                                 management plan. The plan addresses four threats
                                                 and comprises five parts:
                                                   − the threat,
                                                   − the probability of the threat occurring,
                                                   − the risk if the threat occurs,
                                                   − the possible cost if the threat occurs, and
                                                   − countermeasures that can be applied.

System life-cycle            No                  DSCA had not developed a DSAMS life-cycle plan
plan exists?                                     at the time the matrix was submitted. The system
                                                 life-cycle plan was being developed as of June 2002.

System security plan         No                  DSCA had not developed a DSAMS security plan at
in place?                                        the time the matrix was submitted.

                                                 DSCA developed a system security plan since the
                                                 matrix was submitted.

                                                 The plan provides an overview of DSAMS security
                                                 requirements.



    ∗
        Some questions request a date only. If a date was provided, it can be implied that the answer was yes.



                                                       16
                           Assessment Criteria Information (cont’d)

                                 DSCA
  Data Requested                Response∗                                Audit Results

Proper personnel             Yes                 DSAMS had segregation of duties, with varying
security measures in                             levels of access and control.
place? (includes                                    − Designers, developers, programmers, testers,
assignment of duties                                    and system administrators all had automated
and segregation of                                      data processing level I, II, or III access
duties)                                                 privileges.
                                                    − The level of automated data processing access
                                                        privileges granted was based on each
                                                        position’s job description.

                                                 Passwords were required to be changed every 90 days.

                                                 User accounts were closed after 180 days of inactivity.

                                                 Unresolved issues from prior audit:
                                                   − DSCA was not requiring completed security
                                                      background investigations before allowing
                                                      users and developers access to DSAMS.
                                                   − Contractor employees without completed
                                                      background investigations have been develop-
                                                      ing DSAMS, some since calendar year 1996.
                                                   − Initial security background investigation
                                                      requests for contractor employees were not
                                                      submitted till FY 2000, and most of the
                                                      clearances were still pending.

Physical security            Yes                 All DSAMS hardware was secured by DISA at
controls in place?                               DECC Oklahoma City.
                                                 DECC Oklahoma City received DITSCAP
                                                 accreditation on September 15, 2000.
                                                    − DECC Oklahoma City support and
                                                        administrative areas were protected by at least
                                                        one physical barrier.
                                                    − DECC Oklahoma City computer room was
                                                        protected by at least three physical barriers.
                                                 The Defense Security Assistance Development
                                                 Center network, Mechanicsburg, was secured by at
                                                 least two physical barriers.

    ∗
        Some questions request a date only. If a date was provided, it can be implied that the answer was yes.



                                                       17
                           Assessment Criteria Information (cont’d)

                                 DSCA
  Data Requested                Response∗                                Audit Results

Administrative               Yes                 DSCA had established a help desk and an audit trail
controls in place?                               for DSAMS.
(includes help desk
and audit trail)

Contingency plans            No                  DSCA had a year 2000 DSAMS business
in place?                                        contingency plan. The plan had two contingency
                                                 plans of action.
                                                    − Short-term loss (less than 1 week): Users of
                                                       the system would hold work until DSAMS
                                                       became operational.
                                                    − Prolonged loss (in excess of 1 week): Manual
                                                       means would be put into effect (typewriters,
                                                       word processors, faxes, telephones, couriers,
                                                       and the use of existing reports), and data would
                                                       be inputted when DSAMS became operational.

                                                 If DECC Oklahoma City operations site were to
                                                 become inoperable, DSAMS would be restored at a
                                                 DISA backup operations site in Louisiana from the
                                                 nightly DSAMS backup file.

                                                 The contingency plan was being revised to address
                                                 additional events.

Date contingency             Blank               The contingency plan had not been fully exercised.
plans last exercised?                              − DSAMS has been down for short-term periods.
                                                   − DSAMS data backup and recovery processes
                                                       had been exercised.
                                                   − DSAMS was exercised at the backup
                                                       operations site in June 2002.

Hardware and         Yes                         The DSCA response was incorrect. As of June 2002,
system software                                  DSCA still did not have maintenance plans in place
maintenance plans in                             for DSAMS.
place? (includes
version control
testing)


    ∗
        Some questions request a date only. If a date was provided, it can be implied that the answer was yes.



                                                       18
                           Assessment Criteria Information (cont’d)

                                 DSCA
  Data Requested                Response∗                                Audit Results

Data integrity               Yes                 DSAMS was protected by virus detection and
processes in place?                              communication encryption software.
(includes virus                                  DSAMS data integrity is managed under the DECC
scans, system                                    Oklahoma City, DITSCAP-accredited system
performance                                      procedures and processes.
monitoring)

Security incident            Blank               DSCA did not have a security incident response plan
response plan in                                 at the time the matrix was submitted. However,
place?                                           DSCA subsequently developed a plan. The plan
                                                 addresses:
                                                    − unauthorized intrusions;
                                                    − classified message incidents;
                                                    − malicious code;
                                                    − fraud and theft;
                                                    − errors in and omissions of data;
                                                    − employee sabotage and abuse; and
                                                    − denial of service incidents.




    ∗
        Some questions request a date only. If a date was provided, it can be implied that the answer was yes.



                                                       19
                         Operations and Assessments Interest Items

                                 DSCA
  Data Requested                Response∗                               Audit Results

Protected by IDS             Yes                 DSAMS was protected by IDS.
[Intrusion Detection
Software]?                                       DECC Oklahoma City provides DSAMS IDS
                                                 support as part of their operations.

Boundary protection          Yes                 DSAMS was protected by boundary protection
in place? (For                                   (firewalls).
example, firewall)                                  − DECC Oklahoma City provides DSAMS
                                                       boundary protection as part of its operations.
                                                    − Unsuccessful login attempts are tracked.

Red and blue team            No                  No red and blue team assessments had been
assessment? (Date)                               performed on DSAMS.

                                                 A red and blue team assessment was performed for
                                                 the DECC Oklahoma City site.

Connection                   Yes                 DSAMS had a formal interface agreement with
approved?                                        the Defense Finance and Accounting Service’s
                                                 Defense Integrated Financial System.

                                                 DSAMS had interface design specifications for
                                                 internal DSCA systems

IAVA [Information     Yes                        DSCA had an IAVA policy in place and had
Assurance                                        allocated the personnel resources required to
Vulnerability Alerts]                            implement it. DSCA is using the DISA IAVA
compliant?                                       handbook as its IAVA policy.

VAAP [Vulnerability Blank                        No VAAP assessment had been completed for
Analysis and                                     DSAMS.
Assistance Program]
assessment complete?
(Date)




    ∗
        Some questions request a date only. If a date was provided, it can be implied that the answer was yes.



                                                       20
                   Operations and Assessments Interest Items (cont’d)

                                 DSCA
  Data Requested                Response∗                               Audit Results

Joint Staff integrated Blank                     No joint staff integrated vulnerability assessments
vulnerability                                    had been completed for DSAMS.
assessments
complete? (Date)

System requirements Blank                        No system requirements reviews had been
reviews complete?                                completed for DSAMS at the time DSCA submitted
(Date)                                           the matrix.

                                                 However, a system requirements review by DISA
                                                 of DECC Oklahoma City included a review of
                                                 DSAMS.

Balance                      Blank               No balance survivability assessment had been
survivability                                    completed for DSAMS.
assessment
complete? (Date)

Integrated                   Blank               No integrated vulnerability assessment had been
vulnerability                                    completed for DSAMS.
assessment
complete? (Date)




    ∗
        Some questions request a date only. If a date was provided, it can be implied that the answer was yes.




                                                       21
Applicable Acronyms

ASD(C3I)          Assistant Secretary of Defense (Command, Control,
                     Communications, and Intelligence)
DECC              Defense Enterprise Computing Center
DISA              Defense Information Systems Agency
DITSCAP           Defense Information Technology Security Certification and
                     Accreditation Process
DSAMS             Defense Security Assistance Management System
DSCA              Defense Security Cooperation Agency
GISR              Government Information Security Reform
IAVA              Information Assurance Vulnerability Alerts
IDS               Intrusion Detection Software
SSAA              System Security Authorization Agreement
VAAP              Vulnerability Analysis and Assistance Program




                              22
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Director, Defense-Wide Information Assurance Program

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Defense Security Cooperation Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          24
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Tilghman A. Schraden
Kathryn L. Palmer
Walter S. Bohinski
Glen B. Wolff
Daniel L. Messner
Elizabeth N. Shifflett
